FILED: July 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6366
(2:19-cv-00241-RAJ-LRL)

TORREY WASHINGTON
Petitioner - Appellant
v.
HAROLD W. CLARKE
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/si PATRICIA S. CONNOR. CLERK

due A

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6366
TORREY WASHINGTON,
Petitioner - Appellant,
v.
HAROLD W. CLARKE,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Norfolk. Raymond A. Jackson, District Judge. (2:19-cv-00241-RAJ-LRL)
Submitted: July 23, 2020

Decided: July 28, 2020

Before WILKINSON, MOTZ, and RICHARDSON, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Torrey Lavell Washington, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Torrey Lavell Washington seeks to appeal the district court’s order accepting the
recommendation of the magistrate judge and denying relief on Washington’s 28 U.S.C.
§ 2254 (2018) petition. The district court referred this case to a magistrate judge pursuant
to 28 U.S.C. § 636(b)(1)(B) (2018). The magistrate judge recommended that relief be
denied and advised Washington that failure to file timely, specific objections to this
recommendation could waive appellate review of a district court order based upon the
recommendation.
The timely filing of specific objections to a magistrate judge’s recommendation is
necessary to preserve appellate review of the substance of that recommendation when the
parties have been warned of the consequences of noncompliance. Martin v. Duffy, 858
F.3d239,245 (4th Cir. 2017); Wright v. Collins, 766 F.2d 841, 846-47 (4th Cir. 1985); see
also Thomas v. Arn, 474 U.S. 140, 154-55 (1985). Washington has waived appellate
review by failing to file objections to the magistrate judge’s recommendation after
receiving proper notice.
Accordingly, we deny a certificate of appealability, deny leave to proceed in forma
pauperis, and dismiss the appeal. We dispense with oral argument because the facts and
legal contentions are adequately presented in the materials before this court and argument
would not aid the decisional process.
DISMISSED

2
gjY\

J pv A

*Case £:19-cv-00241-RAJ-LRL Document 7 Filed 02/19/20 Page 1 of 2 PagelD# 69

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Norfolk Division
TORREY LAVELL WASHINGTON, #1305527,
Petitioner,
v.

CIVIL ACTION NO. 2:19cv241

HAROLD W. CLARKE, Warden,
Virginia Department of Corrections,
Respondent.
FINAL ORDER
Before the Court is a Petition for a Writ of Habeas Corpus filed pursuant to 28 U.S.C.
§2254. ECF No. 1.

Therein, the pro se Petitioner claims violation of his federal rights

pertaining to his convictions and sentencing in Virginia Beach Circuit Court on July 17, 2013,
for. Abduction, Armed Statutory Burglary, Robbery, and Use of a Firearm in the Commission of
a Felony.
The matter was referred for disposition to a United States Magistrate Judge pursuant to
28 U.S.C. §§ 636(b)(1)(B) and (C), Federal Rule of Civil Procedure 72(b), Local Civil Rule 72,
and the April 2, 2002 Standing Order on Assignment of Certain Matters to United States
Magistrate Judges. In a Report and Recommendation filed January 14,2020, the U.S. Magistrate
Judge recommended dismissal of the Petition without prejudice. ECF No. 6. The Petitioner was
advised of his right to file written objections to the Report and Recommendation. The Petitioner
did’not file written objections to the Report and Recommendation and the time to do so has
expired.
/
/
/
/

^clvX &

* Case^:19-cv-00241-RAJ-LRL Document 7 Filed 02/19/20 Page 2 of 2 PagelD# 70

Having reviewed the record and having heard no objection, the Court does hereby
ADOPT and APPROVE the findings and recommendations set forth in the Report and
Recommendation filed January 14,2020. It is, therefore, ORDERED that the Petition, ECF No.
1, be DENIED and DISMISSED WITHOUT PREJUDICE.
The Petitioner may appeal from the judgment entered pursuant to this Final Order by
filing a written notice of appeal with the Clerk of this court, United States Courthouse, 600
Granby Street, Norfolk, Virginia 23510, within thirty (30) days from the date of entry of such
judgment.
The Petitioner has failed to demonstrate a substantial showing of the denial of a
constitutional right, and therefore, the Court declines to issue any certificate of appealability
pursuant to Rule 22(b) of the Federal Rules of Appellate Procedure. See Miller-El v. Cockrell,
537 U.S. 322,335-36 (2003).
The Clerk is DIRECTED to forward a copy of this Final Order to Petitioner and a copy of
the petition, its related filings and this Final Order shall be served on the Respondent and the
Attorney General by CM/ECF pursuant to their Agreement on Acceptance of Service with the
Court.
It is so ORDERED.
&-------------

Raymond A. Jackson
I Tnitfld States District Judge_____
RAYMOND A. JACKSON
UNITED STATES DISTRICT JUDGE

February fa ,2020

2

r

PER CURIAM:
The district court accepted the recommendation of the magistrate judge and
dismissed Torrey Lavell Washington’s petition for a writ of habeas corpus under 28 U.S.C.
§ 2254 (2018) on March 18, 2019. Washington filed a Fed. R. Civ. P. 60(b) motion for
relief from judgment in May 2019; the district court construed that motion as an
unauthorized successive § 2254 petition and dismissed it on June 26, 2019 for lack of
jurisdiction, because Washington had not obtained profiling authorization from this court.
See 28 U.S.C. § 2244(b)(3)(A) (2018); United States v. McRae, 793 F.3d 392, 397-400 (4th
Cir. 2015).
In appeal No. 19-7053, Washington appeals the district court’s order dismissing his
original habeas petition with prejudice. See Fed. R. App. P. 3(c)(1)(B); Jackson v.
Lightsey, 775 F.3d 170, 175-76 (4th Cir. 2014) (noting we construe requirements of Rule
3 liberally to ascertain whether notice of appeal complies with those requirements). In
appeal No. 19-7180, he appeals the district court’s dismissal of his successive § 2254
petition. We dismiss both appeals for lack of jurisdiction because the notices of appeal
were not timely filed.
In civil cases, parties have 30 days after the entry of the district court’s final
judgment or order to note an appeal, Fed. R. App. P. 4(a)(1)(A), unless the district court
extends the appeal period under Fed. R. App. P. 4(a)(5) or reopens the appeal period under
Fed. R. App. P. 4(a)(6). “[T]he timely filing of a notice of appeal in a civil case is a
jurisdictional requirement.” Bowles v. Russell, 551 U.S. 205, 214 (2007). The district
court entered its orders on March 18 and June 26, and Washington filed the corresponding
3

A ppwj \j\

c

notices of appeal on July 11 and August 7, respectively. Because Washington failed to file
a timely notice of appeal or to obtain an extension or reopening of the appeal period in
either case, we deny leave to proceed in forma pauperis and dismiss the appeals.
We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

4

Apfltryfe c

Case 2:19-cv-00241-RAJ-LRL Document 6 Filed 01/14/20 Page 1 of 3 PagelD# 66

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Norfolk Division
TORREY LA YELL WASHINGTON, #1305527,
Petitioner,
v.

Case No.: 2:19-cv-241

HAROLD W. CLARKE,
Respondent.
REPORT AND RECOMMENDATION FOR DISMISSAL
This matter was initiated by a Petition for a Writ of Habeas Corpus pursuant to 28 U.S.C.
§ 2254 submitted by Torrey Lavell Washington, (“Petitioner”). ECF No. 1. The petition alleges
violation of federal rights pertaining to his convictions in the Virginia Beach Circuit Court on
July 17, 2013, for Abduction, Armed Statutory Burglary, Robbery, and Use of a Firearm in the
Commission of a Felony. The matter was referred to the undersigned United States Magistrate
Judge (“undersigned”) pursuant to 28 U.S.C. §§ 636(b)(1)(B) and (C), Federal Rule of Civil
Procedure 72(b), Eastern District of Virginia Local Civil Rule 72, and the April 2, 2002,
Standing Order on Assignment of Certain Matters to United States Magistrate Judges. For the
reasons stated in this Report, the undersigned RECOMMENDS the Petitioner’s Petition be
DENIED and DISMISSED WITHOUT PREJUDICE.
As the pro se Petitioner had not paid the required $5.00 filing fee nor had he requested to
proceed in forma pauperis, the Petition was conditionally filed. Federal law requires that a
habeas petitioner pay a filing fee of $5.00 or submit an affidavit requesting to proceed in forma

Case 2:19-cv-00241-RAJ-LRL Document 6 Filed 01/14/20 Page 2 of 3 PagelD# 67

pauperis. On November 8, 2019, the Court ordered Petitioner to submit one of the following
within thirty days: (1) the $5.00 filing fee; or (2) an Affidavit in Support of Request to Proceed
in Forma Pauperis. Furthermore, the Court advised Petitioner that the failure to provide the
Clerk of the Court with either the requisite $5.00 filing fee or an “Affidavit in Support of
Request to Proceed in Forma Pauperis'” would result in submission to a United States District
Judge for recommended dismissal without prejudice. ECF No. 5. The Court has not received a
filing fee, a request for an extension, a statement demonstrating Petitioner’s inability to pay, or
any other correspondence from Petitioner, and the time allotted has expired.
In light of Petitioner’s failure to pay the required filing fee or submit an affidavit in
support of a request to proceed in forma pauperis, the undersigned RECOMMENDS that the
Petition, ECF No. 1, be DENIED and DISMISSED WITHOUT PREJUDICE. Additionally,
Petitioner filed a Motion for Entry of Factual Evidence and Filing of Judicial Notice. ECF No. 2.
In light of the above, the Court cannot consider this motion and it is therefore DENIED as
MOOT.
By receiving a copy of this Report and Recommendation, Petitioner is notified that:
1.

Petitioner may tile with the Clerk written objections to the above findings and

recommendations within fourteen (14) days from the date this Report and Recommendation is
forwarded to the objecting party. See 28 U.S.C. § 636(b)(1)(C), computed pursuant to Federal
Rule of Civil Procedure 6(a).
2. A United States District Judge shall make a de novo determination of those portions of
this report or specified findings or recommendations to which objection is made.
The Petitioner is further notified that failure to file timely objections to the findings and
2

Case 2:19-cv-00241-RAJ-LRL Document 6 Filed 01/14/20 Page 3 of 3 PagelD# 68

recommendations set forth above will result in a waiver of the right to appeal from a judgment of
this Court based on such findings and recommendations. Thomas v. Am, 474 U.S. 140 (1985);
Carr v. Hutto, 737 F.2d 433 (4th Cir. 1984), cert, denied, 474 U.S. 1019 (1985); United States v.
Schronce, 727 F.2d 91 (4th Cir. 1984), cert, denied, 467 U.S. 1208 (1954).
The Clerk is DIRECTED to forward a copy of this Report and Recommendation to
Petitioner.
It is so ORDERED.

tsL

Lawrence R. Leonard
United States Magistrate Judge
Lawrence R. Leonan
United States Magistrate Judge
Norfolk, Virginia
January 14, 2020

3

